               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




            Revenue Generation Patents

                 Management Advisory




                                         September 26, 2013

Report Number HR-MA-13-004
                                                                    September 26, 2013

                                                         Revenue Generation Patents

                                                        Report Number HR-MA-13-004




BACKGROUND:
Intellectual property is intangible          commercial value of patents that could
property created by individuals or           be used to generate revenue.
organizations that can be owned,
transferred, or leased through licensing     WHAT THE OIG FOUND:
agreements. The U.S. Postal Service’s        Postal Service management has not
general counsel helps the agency             implemented our recommendations to
identify and protect its intellectual        develop an effective patent
property. One type of intellectual           management process and licensing
property is a patent, which conveys to       program or to draft claims to recover the
the inventor the right to exclude others     commercial value of patents due to
from making; using; or selling an object,    funding constraints. We determined, in
tool, process, or system that is invented.   conjunction with an intellectual property
Patents can be used to negotiate             management firm, that 18 additional
contracts and business deals, resolve        patents held a commercial value of
disputes, enhance market share, and          $183.4 million. While this review
produce revenue. Patent licensing            identified potential licensing strategies to
strategies provide ways to enforce           address Postal Service funding
patent rights and obtain revenue.            constraints, we will conduct a
                                             subsequent review of intellectual
In two prior reports, we identified six      property strategies for potential use by
patents that could be used to generate       the Postal Service. Given the Postal
additional revenue estimated at              Service’s financial challenges, its patent
$763 million. We recommended                 portfolio provides an opportunity to
management develop a strategy for            generate additional revenue.
developing patent intellectual property,
develop an effective patent                  WHAT THE OIG RECOMMENDED:
management process, and draft claims         We recommended the Postal Service
to recover commercial value lost on          work closely with subject matter experts
highly rated patents.                        to review patents with revenue
                                             generation potential and draft claims as
Our objective was to follow up on prior      appropriate.
recommendations and determine the
                                             Link to review the entire report
September 26, 2013

MEMORANDUM FOR:           THOMAS J. MARSHALL
                          GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT




FROM:                     Michael A. Magalski
                          Deputy Assistant Inspector General
                           for Support Operations

SUBJECT:                  Management Advisory – Revenue Generation Patents
                          (Report Number HR-MA-13-004)

This management advisory presents the results of our review of the U.S.
Postal Service's Revenue Generation Patents (Project Number 13YG021HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director, Human
Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Revenue Generation Patents                                                                                        HR-MA-13-004




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Recommendation ............................................................................................................ 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Monetary Impact ......................................................................................... 7

Appendix C: Management’s Comments .......................................................................... 8

Attachment A: Contractor’s Report ................................................................................ 10
Revenue Generation Patents                                                                     HR-MA-13-004



Introduction

This management advisory presents the results of our review of the U.S. Postal
Service's Revenue Generation Patents (Project Number 13YG021HR000). We
contracted with an intellectual property management firm to study the Postal Service's
patent portfolio. Our objective was to follow up on prior recommendations and
determine the commercial value of patents that could be used to generate revenue. See
Appendix A for additional information about this review.

Intellectual property is intangible property created by individuals or organizations that
can be owned, transferred, or leased through licensing agreements. The Postal
Service’s general counsel helps the agency identify and protect its intellectual property.
One type of intellectual property is a patent that conveys to the inventor the right to
exclude others from making; using; or selling an object, tool, process, or system that is
invented. Patents can be used to negotiate contracts and business deals, resolve
disputes, enhance market share, and produce revenue. Patent licensing strategies
provide ways to enforce patent rights and obtain revenue.

In two prior reports,1 we identified six patents that could be used to generate additional
revenue estimated at $763 million. We recommended management develop a strategy
for developing patent intellectual property, develop an effective patent management
process, and draft claims to recover commercial value lost on highly rated patents.

Conclusion

Management has not implemented our recommendations to develop an effective patent
management process and licensing program or to draft claims to recover the
commercial value of patents due to funding constraints. We determined, in conjunction
with an intellectual property management firm, that 18 additional patents held a
commercial value of $183.4 million. Table 1 shows the 18 specific patents analyzed and
identified as active and owned by the Postal Service, grouped in five patent families.
Table 2 shows the commercial value of the five patent families is $183.4 million, net of
recovery costs.2 See Appendix B for our calculation of monetary impact.

While this review identified potential licensing strategies to address Postal Service
funding constraints, we will conduct a subsequent review of intellectual property
strategies for potential use by the Postal Service. Given the Postal Service’s financial
challenges, its patent portfolio provides an opportunity to generate additional revenue.




1
  Postal Service Patent Management (Report Number DA-MA-10-004, August 31, 2010) and Postal Service Patent
Management Continuation (Report Number DA-MA-11-002, April 8, 2011).
2
  Costs to recover the estimated commercial value of the patents, including attorneys fees and labor costs.
                                                          1
 Revenue Generation Patents                                                                         HR-MA-13-004



               Table 1: Patents and Related Patent Family Category

               U.S. Patent Number                                      Patent Family Category




Source: decision/analysis partners LLC.


                      Table 2: Commercial Value by Patent Family

                                   Patent Family                               Commercial
                                                                               Significance




                Total                                                            $184,432,092
                Less Recovery Costs                                                $1,050,000
                Net Commercial Value                                             $183,382,092
               Source: decision/analysis partners LLC and U.S. Postal Service Office of Inspector
               General (OIG) estimate of recovery costs.

 Patent monetization derives value from patent assets through arrangements with
 external parties. Monetization options include licensing, selling, and litigation. A
 well-executed licensing program can often maximize the value derived from patents
 when compared to other monetization options. Although the Postal Regulatory

                                                          2
Revenue Generation Patents                                                      HR-MA-13-004



Commission has the authority to regulate patent commercialization, the Postal Service
currently has no prohibitions to licensing its patents.

While this review identified potential licensing strategies to address Postal Service
funding constraints, we will conduct a subsequent review of intellectual property
strategies for potential use by the Postal Service. Potential licensing strategies include:

   Carrot Licensing, in which the patent owner tries to convince the potential licensee of
    the benefits of licensing and, if accepted, negotiates the level of support
    accompanying the patent license.

   Privateer arrangements, in which a company outsources its patent monetization
    function to an entity with experience.

Recommendation

We recommend the general counsel and executive vice president:

1. Work closely with subject matter experts to review patents with revenue generation
   potential and draft claims as appropriate.

Management’s Comments

Management agreed with the recommendation and will work with other functional
groups within the Postal Service to develop an appropriate strategy for intellectual
property monetization that can be presented to senior management. Management will
begin implementing the recommendation after the OIG whitepaper is issued that will
present a comprehensive strategy for developing, managing, and monetizing intellectual
property.

Management neither agreed or disagreed with the monetary impact. However, they
stated they were not in a position to assess the accuracy of the value assessments
made by the contractor for the 18 patents reviewed, but they agreed that the Postal
Service’s patent portfolio may have value. See Appendix C for management’s
comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.

The OIG considers the recommendation significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service's follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.


                                             3
Revenue Generation Patents                                                       HR-MA-13-004



                             Appendix A: Additional Information

Background

Intellectual property is intangible property created by individuals or organizations that
can be owned, transferred, or leased through licensing agreements. Statutes and case
law set the requirements for an asset to qualify as intellectual property and provide
guidelines that determine the boundaries of a piece of intellectual property. The
Postal Service’s general counsel helps the agency identify and protect its intellectual
property.

One type of intellectual property is a patent. While patents granted by the federal
government are only effective in the U.S., most countries have established some form
of patent system.

Utility patents are granted for any new and useful process, machine, article of
manufacture, or related useful improvement. Utility patents are effective for 20 years
from the date an application is filed. As a general matter, only the inventor may apply for
a patent. If someone other than the inventor files an application, the patent, if issued,
would be invalid and the applicant could be subject to criminal penalties.

Objective, Scope, and Methodology

Our objective was to follow up on prior recommendations and determine the commercial
value of patents the Postal Service could use to generate revenue.

To assess the commercial value that could be generated by licensing selected patents,
we contracted with an intellectual property management firm to review 208 active
patents in the Postal Service's portfolio. The contractor ranked them according to a
number of factors after discussions with the Postal Service's legal team. First, a
suitability ranking was assigned and then a “market,” or technology sector was
assigned, identifying overall commercial markets into which the patent could be
licensed, or in which the patent could be infringed. Finally, the contractor scored each
patent in the portfolio to objectively assess patent quality, relevant patents and
technologies, competition, and competitive trends.

The contractor first identified an initial set of 60 patents, and then 25 patents with high
monetization potential. It further refined its analysis to determine five patent families
incorporating 18 patents to be analyzed in greater detail. It performed a detailed
analysis of each patent family and assessed the commercial value of each patent
family.

We conducted this review from March through September 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 29, 2013, and included their comments where appropriate.


                                              4
Revenue Generation Patents                                                  HR-MA-13-004



We did not assess the reliability of any computer-generated data during our
engagement; however, to evaluate whether the evidence provided by the contractor
was rational, we considered:

   The professional reputation, qualifications, and independence of those who
    performed the work.

   The soundness of the methodology used and the reasonableness of work results.

   Corroborating information provided by Postal Service and OIG counsel with subject
    matter knowledge.




                                           5
    Revenue Generation Patents                                                    HR-MA-13-004



    Prior Audit Coverage

                                                                       Monetary
                                                        Final Report     Impact
        Report Title             Report Number               Date     (in billions)
Postal Service Patent
Management Continuation            DA-MA-11-002            4/8/2011        $2.054
Report Results:
The Postal Service currently does not manage its portfolio of patents to maximize
commercial significance. Our evaluation of three patents, conducted in conjunction
with an intellectual property management firm, determined that the annual
commercial value of those three patents in conjunction with three additional patents
from a prior report is $763 million, net of attorney fees. We recommended the
Postal Service work closely with subject matter experts to review highly rated
patents to draft claims as appropriate, develop a comprehensive strategy for
developing patent intellectual property that enhances its products and services and
its competitive position in the global market place, and ensure it has an effective
patent management process and comprehensive licensing program in place.
Management agreed with our recommendations.

Postal Service Patent
Management                        DA-MA-10-004            8/31/2010          None
Report Results:
The opportunity to capitalize on active Postal Service patents exists because
management has not strategically considered leveraging patents to generate new
revenue. We recommended Postal Service develop a plan to capture the value of
its patents and management agreed with our recommendation.




                                                6
Revenue Generation Patents                                                                             HR-MA-13-004




                                     Appendix B: Monetary Impact

        Recommendation                            Impact Category                            Amount
              1                                    Revenue Loss3                            $183,382,092

We calculated revenue loss by reducing the total commercial value by the amount of
estimated recovery costs. Specifically, we:

   We identified the total commercial value for the five patent families as $184,432,092.

   We estimated legal fees of $10,000 for each of the five patent families for a total of
    $50,000.

   We estimated labor costs of $100,000 per year for a director of Technology Transfer
    (or similar position) for 10 years for a total of $1,000,000.

We subtracted legal fees and labor costs ($1,050,000) from the total commercial value
($184,432,092) to arrive at net revenue loss of $183,382,092.




3
  Revenue Loss - Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because
policies, procedures, agreements, requirements, or good business practices were lacking or not followed. May be
recoverable or unrecoverable. May apply to historical events or a future period (in the sense perceived future losses
may be prevented by the implementation of a recommendation).


                                                          7
Revenue Generation Patents                                       HR-MA-13-004



                             Appendix C: Management’s Comments




                                             8
Revenue Generation Patents       HR-MA-13-004




                             9
Revenue Generation Patents        HR-MA-13-004




Attachment A: Contractor’s Report




                             10
